Before the Committee on Commerce, Science, and Transportation
Subcommittee on Aviation
United States Senate


                            Progress and Challenges in
  For Release on Delivery
  Expected at
  2:45 p.m. EDT
  Tuesday
  March 20, 2012            Responding to Key
                            Provisions of the Airline
  CC-2012-016



                            Safety Act

                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Madam Chairman and Members of the Subcommittee:

Thank you for inviting me here today to testify on the Federal Aviation
Administration’s (FAA) progress in implementing advanced standards for pilot
training and new safety measures for air carriers. As you know, following the 2009
Colgan Air crash, Congress and FAA took swift action to implement measures for
improving pilot training and qualifications programs, reducing flight crew fatigue, and
ensuring operators meet safety standards. These efforts culminated with the August
2010 passage of the Airline Safety and FAA Extension Act, 1 which contains new
requirements to enhance safety in these areas. Effective implementation of these
requirements should go a long way in improving safety in commercial airline travel.

Prior to passing the Act, this Subcommittee, as well as the House Committee on
Transportation and Infrastructure, requested that we review FAA and industry efforts
to enforce new Federal regulations for flight crew rest requirements and address
fatigue issues and airline pilot training program weaknesses. Since we began our work
in 2009, we have issued three reports. 2 Our testimony today is based on those reports
as well as our ongoing work regarding implementation of the Act. Today, I will focus
on (1) FAA’s progress in responding to provisions of the Act, (2) the challenges FAA
faces in implementing certain provisions, and (3) concerns related to achieving the
full measure of safety enhancements intended by the Act.

IN SUMMARY
FAA has met or is on schedule to meet many of the Act’s requirements, such as
improving pilot rest requirements and establishing better processes for managing
safety risks. However, FAA has not met timelines for raising pilot training standards,
implementing mentoring programs, providing enhanced leadership skills to captains,
and increasing minimum pilot qualifications. FAA also faces challenges in
establishing a pilot records database—an important component for enhancing the air
carrier screening process for pilot applicants. In addition to overcoming these
challenges, FAA needs to provide additional guidance and assistance to industry—
especially smaller carriers—in developing and managing new safety programs.

BACKGROUND
The 2010 Act included 16 provisions to improve airline safety and pilot training with
milestones spread over a 3-year period. The Act called for advanced standards for

1
    Airline Safety and Federal Aviation Administration Extension Act of 2010, Pub. L. No. 111-216, August 1, 2010.
2
    OIG Correspondence Number CC-2009-074, “Letter to Senators Rockefeller, Hutchinson and DeMint Regarding
    Commercial Aviation Accidents, Pilot Experience and Pilot Compensation,” February 9, 2011. OIG Report Number AV-
    2011-176, “FAA and Industry Are Taking Action To Address Pilot Fatigue, but More Information on Pilot Commuting Is
    Needed,” September 12, 2011. OIG Report Number AV-2012-027, “New Approaches Are Needed To Strengthen FAA
    Oversight of Air Carrier Training Programs and Pilot Performance,” December 20, 2011. OIG reports are available on
    our Web site: www.oig.dot.gov.

                                                                                                                    1
pilots, including required rulemaking activities for training programs, crewmember
screening and qualifications, and new fatigue regulations to improve passenger safety.
These rulemaking activities are complex, and some have encountered significant air
carrier opposition. In addition to notice and comment periods required by law, FAA
must conduct detailed analyses of each rule’s likely effects and coordinate with
stakeholders. The Act also included several important initiatives that FAA did not
complete during its Call to Action on Airline Safety, 3 such as developing mentoring
and professional programs for pilots and following up with air carriers on efforts to
adopt voluntary safety programs. In addition, the Act requires FAA to establish a pilot
records database that air carriers must access to review qualifications and past
performance data before hiring pilots. (See exhibit for further detail and current status
of FAA’s efforts in each section of the Act.)

FAA MET ACT REQUIREMENTS TO ADDRESS PILOT FATIGUE AND
ADVANCED SOME SAFETY INITIATIVES AT AIR CARRIERS
FAA developed a concerted strategy to meet the Act’s stringent timelines and
implement new safety programs, including issuing a final rule on crew rest and
fatigue, increasing air carrier use of voluntary safety programs, and advancing Safety
Management Systems (SMS).
FAA Overhauled Flight and Duty Time Regulations
In January 2012, FAA updated its flight and duty time regulations for Part 121 4 air
carrier pilots to better ensure pilots are rested when they fly. This is a significant
achievement for the Agency given that these updates were the first modifications to
the regulations since 1985 and that the proposed rule received over 8,000 comments
from the aviation industry, mostly opposing the planned requirements.

Unlike the old rules—which included different rest requirements for domestic,
international, and unscheduled flights—the new regulations establish one set of rules
that are based on scientific factors, such as the time of day pilots begin their first
flight, the number of scheduled flight segments, and the number of time zones
crossed. Pilots are also now required to affirmatively state that they are fit to fly and
are prohibited from flying during a scheduled duty period when they report fatigue.
Other key changes in the new flight and duty time regulations include a 10-hour
minimum rest period prior to duty, a 2-hour increase over the previous rule, and
30 consecutive hours free from duty per week—an increase of 25 percent over the
previous regulation requirements.

3
    FAA’s Call to Action Plan, announced on June 24, 2009, consisted of 10 short- and mid-term initiatives to enhance pilot
    performance and training, increase air carrier participation in voluntary safety programs, and expand pilot records review.
    FAA also set goals to develop new safety oversight guidance to its inspectors, issue rulemakings on pilot fatigue and
    training, conduct regional safety forums to discuss industry best practices, and develop programs addressing pilot
    professionalism.
4
    14 CFR Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations.

                                                                                                                             2
FAA Promoted Air Carriers’ Use of Voluntary Safety Programs
In March 2011, FAA completed a congressionally required review of Part 121 air
carriers’ use of voluntary safety programs 5 and later devised a plan to help smaller air
carriers implement these programs. Data gathered through voluntary safety programs
can be used to identify the trends and patterns that represent risks. The Act targets air
carrier participation in three such programs that FAA oversees:

    • Aviation Safety Action Program (ASAP), which encourages air carrier and repair
      station employees to voluntarily report safety information that may be critical to
      identifying potential precursors to accidents without fear of enforcement or
      disciplinary action.
    • Flight Operational Quality Assurance (FOQA), which collects and analyzes
      digital flight data generated during scheduled flights to provide greater insight into
      performance and operations.
    • Advanced Qualification Program (AQP), which provides a voluntary alternative to
      traditional training standards by incorporating data-driven quality control
      processes to refine pilot training based on the individual’s proficiency and
      identified training needs.

The review found that, as of March 2011, 68 percent of Part 121 air carriers
participate in at least one voluntary safety program and just under half of those
carriers use more than one. Our ongoing analysis of current FAA data as of January
2012 shows a continued rise in voluntary safety program use—70 percent of Part 121
air carriers have at least one program, up from 59 percent 2 years ago. Further, for the
same time period, 47 percent of Part 121 air carriers have multiple programs,
compared to 36 percent 2 years ago.

As shown in figure 1 below, the highest concentration of new growth for these air
carriers has been with ASAP and FOQA. We also determined that the majority of
carriers that transitioned to AQP training were regional carriers. Air carriers that use
AQP benefit from improved data collection and analysis techniques and enhanced
flight crew coordination.




5
    Voluntary Safety Programs, Response to P.L. 111-216, Sec. 213, January 28, 2011.

                                                                                          3
Figure 1. Increase in Voluntary Safety Program Participation
                                                              Dec-09     Jan-12
                                    100%

                                    90%

                                    80%
 Percent of Part 121 Air Carriers




                                                                                            70%
                                    70%          68%

                                                                                      59%
                                    60%    57%

                                    50%                                                                        47%
                                                             43%
                                    40%                                                                  36%
                                                       31%
                                    30%
                                                                             22%
                                    20%                                18%


                                    10%

                                     0%
                                            ASAP        FOQA            AQP          At least one      More than one
                                                                                   voluntary safety   voluntary safety
                                                                                       program            program
Source: OIG analysis of FAA-reported data

FAA Is Ahead of Schedule for Implementing SMS
Increasing use of voluntary safety programs is important for Part 121 air carriers of all
sizes, as the data generated by these programs is a large driver of SMS, a systemic and
comprehensive process for managing safety risks. Specifically, SMS provides
operators with business processes and management tools to examine data from
everyday operations, isolate trends that may be precursors to incidents and accidents,
and develop and carry out appropriate risk mitigation strategies. FAA has nearly
completed its efforts to issue a final rule on SMS for air carriers. The Agency released
a proposed rule in October 2010 and, according to the Act, has until August 2012 to
issue a final rule.

FAA has also taken steps to assist air carriers in developing SMS before the
completion of the final rule. FAA developed an SMS pilot program in 2007 to
develop implementation strategies and oversight responsibilities. SMS pilot projects
allow FAA and air carrier input in developing guidance and provide carriers an
opportunity to share best practices and lessons learned. Currently, 83 percent of all
Part 121 air carriers (73 of 88) are participating in the pilot program.


                                                                                                                     4
The new system, when fully implemented across all carriers, has the potential to
significantly advance safety. However, there is industry concern that the SMS rule
will not be scalable for air carriers of varying size and operational complexity, posing
a larger burden on smaller air carriers for their implementation. Currently, 14 of the
15 carriers that are not yet participating in FAA’s SMS pilot program are smaller
carriers (with less than 20 aircraft). Additionally, air carriers are concerned about
public disclosure of SMS-collected data. Most of these concerns focus on whether the
data can be used in legal proceedings. The current proposed rule does not address
these concerns.

FAA FACES CHALLENGES IN MEETING ACT PROVISIONS ON PILOT
TRAINING AND SAFETY ISSUES
FAA efforts to issue Act-mandated rules to improve training standards, establish
mentoring and leadership programs, and enhance screening and qualifications for
pilots are delayed. While FAA is responsible for raising pilot qualifications, the
successful implementation of such rules depends on FAA’s ability to address air
carrier concerns and work through the regulatory process in a timely manner, which
has been a significant challenge for FAA. The Agency also faces several challenges in
establishing a new centralized electronic pilot records database to provide air carriers
with better background information on pilots they intend to hire.
Industry Concerns Have Delayed FAA’s Rulemaking Efforts To Enhance Pilot Training
Standards
FAA is almost 6 months overdue on issuing a final rule revising pilot training
requirements—the delay is due in part to significant industry opposition. This is an
important safety initiative that will require pilot training programs to incorporate
flight simulators and enhance pilots’ ability to work together during emergencies. In
January 2009, FAA issued the Notice of Proposed Rulemaking (NPRM). However,
FAA received extensive industry comments, primarily opposing that the rule imposes
overly prescriptive training hours rather than basing pilot training on skills most
needed to safely perform flight operations. As a result, FAA issued a second proposed
rule in May 2011. The revised proposal requires more thorough ground and flight
training for pilots on how to recognize and recover from stalls, as well as remedial
training for pilots who perform poorly in training.

With advancements in pilot training on the horizon, it is important that FAA enhance
its oversight practices. For example, under the new rule, carriers will be required to
provide remedial training for pilots with performance deficiencies. However, it will
be difficult for FAA to gauge the effectiveness of this training unless it corrects
weaknesses we identified in our December 2011 report on pilot training. We found
that FAA was not tracking poorly performing pilots due to inadequate guidance for its
inspectors on how to gather data on pilot performance. Specifically, FAA guidance
requires inspectors to compare pilot proficiency checks that they have performed
                                                                                      5
against those conducted by the carriers’ check airmen. 6 However, we questioned the
viability of this requirement since nearly all pilot proficiency checks are conducted by
check airmen, not FAA inspectors. As a result, FAA inspectors may not have
sufficient data to make a meaningful comparison.
FAA’s Rule To Require Pilot Mentoring, Leadership, and Professional Development
Committees at Air Carriers Is Overdue
FAA is also almost 8 months overdue in meeting a mandated timeline to issue a
proposed rule requiring that air carriers establish pilot mentoring, leadership, and
professional development committees to improve pilot performance. This is due, in
part, to a lengthy delay in developing an appropriate balance between the costs and
benefits of these programs. FAA intends to issue a proposed rule that it believes
would generate benefits by reinforcing safe flying practices.

Pilot performance issues are longstanding safety concerns—pilot performance was
cited in 7 of the 10 major accidents that occurred over the last decade, indicating that
the quality of training, professionalism, and mentoring is important to safety. In
February 2011, 7 we also reported that poor pilot performance—such as poor decision-
making, inadequate aircraft control, improper flying techniques, and a disregard for
operating procedures—is a high-ranking causal factor in airline accidents, 8 a finding
consistent with the National Transportation Safety Board (NTSB) review of the
Colgan accident.

After the Colgan accident, FAA focused on advancing pilot mentoring as part of its
2009 Call to Action on Airline Safety and Pilot Training but never released a detailed
plan to implement programs at air carriers. In December 2011, we reported that
regional air carriers were not pursuing mentoring opportunities for their pilots.
Officials at these carriers expressed concerns that a mentoring program would have to
be scaled to their business model and that pilot turnover at these carriers could
outweigh the benefits of establishing these often costly programs. Seven of nine large
and small carriers we recently visited as part of our ongoing audit did not have formal
mentoring programs, and none had professional development programs to instill and
reinforce high performance standards for their pilots.




6
    Pilots employed by air carriers who evaluate a pilot’s proficiency during training and examinations.
7
    OIG Controlled Correspondence CC-2009-074, “Letter to Senators Rockefeller, Hutchison, and DeMint Regarding
    Commercial Aviation Accidents, Pilot Experience and Pilot Compensation,” February 9, 2011.
8
    We analyzed the experience (i.e., total flight time and total make and model flight time in the accident aircraft) of pilots
    involved in 322 scheduled Part 121 passenger accidents that occurred from January 2000 through December 2009.

                                                                                                                              6
FAA Is Behind Schedule and Will Likely Miss the Deadline To Issue a Rule Increasing
Minimum Qualifications for Commercial Airline Pilots
The Act requires FAA to issue a final rule to substantially raise airline pilot
qualifications by August 2012. However, FAA did not issue the proposed rule until
February 2012 and expects to issue the final rule by August 2013—a year after the
mandate. Given the significant increase in pilot flight hours that the Act mandates for
the final rule, FAA has encountered industry opposition.

FAA’s rule would require first officers to hold an Airline Transport Pilot (ATP)
certificate, 9 requiring 1,500 hours of pilot flight time—up from the current mark of
250 hours with a commercial pilot’s license. The proposed rule would also require
first officers to have an aircraft type rating, which involves additional training and
testing specific to the airplanes they fly. Air carrier representatives are opposed to the
increased flight hour requirement because they feel a pilot’s quality and type of flying
experience should be weighted more heavily than the number of flight hours. They
state that the supply of qualified and available pilots will decrease because it will be
difficult for entry-level pilots to attain this amount of hours before being qualified to
fly at a commercial air carrier.

Further, while FAA’s pilot qualification proposal satisfies most of the Act’s
requirements in this area, it may fall short in ensuring sufficient pre-employment
screening. For example, the Act states that applicant pilot screening must include an
assessment of skills, aptitudes, airmanship, and suitability specific to each air carrier’s
operations. However, it is unclear whether FAA intended for the enhanced ATP
requirements in the proposed rule to also satisfy the pre-employment screening
measures contained in the Act. If so, air carriers may not make appropriate changes to
their pre-employment screening procedures specific to their operations.

Finally, FAA has not acted to ensure carriers are ready to transition to these new pilot
qualification requirements. For example, at two regional air carriers we visited as part
of our ongoing review, more than 75 percent of current first officers did not have an
ATP. Yet, neither carrier had developed a plan to ensure these pilots would be able to
meet the enhanced requirements by the deadline, nor had the local FAA inspectors
followed up with these carriers to assess their ability to comply with enhanced
requirements. Additionally, FAA has not taken steps to determine the potential impact
the new ATP requirement would have on current pilots, information that will be
important for safety oversight.




9
    Airline Transport Pilot (ATP) Certificate is the highest level of pilot certification. Pilots certified as ATP are authorized
    to act as pilot-in-command of an aircraft in commercial airline service. Additional eligibility requirements are contained
    in 14 CFR 61.153.

                                                                                                                               7
FAA Lacks a Clear Strategy for Transitioning to a New Centralized Electronic Pilot
Records Database
FAA met the Act’s initial milestone in developing a centralized electronic pilot
records database that will include records previously maintained by air carriers. The
Act did not prescribe any additional milestones for the database’s implementation, but
the Agency has recognized that a rulemaking will be necessary to fully develop the
intricacies of this electronic system and is in the preliminary stages of writing this
proposal. However, to create a robust, complete, and secure data repository that
carriers can use when hiring pilots, FAA must overcome three key challenges:

     • First, FAA must address what level of detail should be captured from air carrier
       pilot training records, such as whether recurrent flight training will be included.
       The Act stipulates that comments and evaluations made by the pilot examiner 10 be
       included in the database; however, industry is highly protective of these data and
       opposes including them in the database. FAA must also address how to include
       historical air carrier pilot training records into its new system. Gathering the
       historical records while keeping them standardized across sources will be difficult
       because information in the records varies based on differences in air carrier
       training programs and the record retention period varies from 5 years to
       indefinitely, depending on the carrier.

     • Second, FAA does not expect to issue a final rule and launch the database for at
       least another 2 years, so FAA will have to determine how to transition from
       current recordkeeping practices mandated by the Pilot Records Improvement Act
       (PRIA) 11 to the new database without disrupting the flow of information.
       Therefore, until air carrier records are fully integrated into the new database,
       carriers may need to continue requesting data from both FAA and previous
       employers.

     • Finally, a pilot records advisory committee identified multiple challenges for FAA
       in accessing records from the National Driver Register (NDR) 12 and incorporating
       them into the database. For example, FAA must decide how to ensure data
       reliability of pilot records and resolve conflicting data retention policies for the
       database versus NDR.

In addition to these challenges, we reported in December 2011 that FAA lacks a
centralized process to receive and respond to carriers’ requests for pilot records. This
raises questions about whether air carriers are getting all the relevant information
FAA has on pilots before they are hired. While this problem may be mitigated once
10
     An FAA inspector or air carrier pilot who is qualified, and permitted, to conduct flight checks or instruction in an
     airplane, in a flight simulator, or in a flight training device for a particular type airplane.
11
     Pub. L. No. 104-264, Section 502 (codified at 49 U.S.C. § 44703(h)-(j)).
12
     NDR is a central information system that allows states to electronically exchange information on licensed drivers through
     a computerized network.

                                                                                                                            8
the new database is launched, it remains a concern in the interim, especially since
FAA’s 2009 Call to Action on Airline Safety and Pilot Training called on carriers to
obtain more comprehensive records on pilots prior to hiring. As a result, FAA
experienced an influx of record requests from carriers and an increased workload.

SUSTAINED COMMITMENT AND OVERSIGHT ARE NEEDED TO
ACHIEVE THE FULL MEASURE OF SAFETY ENHANCEMENTS
INTENDED BY THE ACT
Sustained FAA management commitment and oversight are needed to ensure that
provisions of the Act are effectively implemented and have the desired impact of
improving safety. Specifically, FAA needs to (1) effectively communicate with local
FAA offices and industry on the status of new rules and guidance, (2) provide
additional direction and support for developing new safety programs at smaller air
carriers, and (3) address pilot commuting issues.
FAA Has Not Provided the Level of Education, Outreach, and Guidance Needed for
Industry To Implement New Safety Programs
A lack of key stakeholder involvement and poor communication between FAA and
industry is impeding progress on several Act initiatives. FAA created six aviation
rulemaking committees (ARC) to develop recommendations on multiple initiatives,
such as identifying and promulgating best practices in pilot training and developing
the pilot record database. However, FAA did not inform its field offices or airlines of
many of the ARCs’ results, such as status of rulemakings, or engage in effective
outreach efforts for new safety programs other than SMS. For example, none of the
nine field offices we visited during our ongoing review had received information from
FAA on the Agency’s progress in developing mentoring, professional development,
and leadership programs for air carrier pilots. If FAA had provided early outreach to
field offices on the status of rulemaking and best practices, air carriers could be better
positioned to implement new pilot safety programs when the rules are finalized.

Further, FAA did not follow up to ensure proper implementation of guidance it has
issued to air carriers. For example, while FAA issued guidance for retaining and
submitting pilot training records for the new electronic, centralized pilot records
database, it did not follow up to see that air carriers were following the new
requirements. Four of the six carriers we visited during our ongoing review had not
clarified their policies to reflect this change. As a result, important details concerning
pilot training and proficiency may be lost and not available for air carriers to use in
future hiring decisions.

Additionally, some air carriers that had moved forward with new programs
encountered obstacles in obtaining FAA approval. For example, one regional air
carrier attempted to proactively develop a program for first officers to obtain
advanced certification as prescribed by the Act. While the local FAA office initially

                                                                                        9
approved the program, FAA rescinded the approval 1 day before it was set to launch
because national-level guidance had not been issued. Although most actions taken by
air carriers thus far are voluntary, a lack of clear and timely communication by FAA
provides little impetus for air carriers to move forward with new initiatives.
FAA Does Not Have a Focused Plan To Help Smaller Air Carriers Establish New
Safety Programs
Despite overall gains, implementation of voluntary safety programs has mostly
occurred at larger air carriers. Yet, the Act instructed FAA to develop a plan to help
all Part 121 carriers establish such programs, with particular emphasis on ASAP and
FOQA. FAA devised an implementation plan for ASAP and FOQA at smaller air
carriers, but a lack of funding has prevented FAA from enacting the FOQA plan. As a
result, smaller carriers have been unable to purchase and install the equipment needed
to run this program. With a focused plan and dedicated funding, FAA can help
smaller air carriers establish voluntary safety programs and realize the benefits of
increased safety reporting and trend analyses.

As shown in table 1, while all large carriers with more than 50 aircraft in their fleet
have an incident reporting system (ASAP), the system has been adopted by only
41 percent of small carriers with 15 or fewer aircraft. Similarly, just over 10 percent
of these small operators have FOQA, compared to more than 90 percent of large
operators.

Table 1. Air Carrier Voluntary Safety Program Participation

Program                            Number of       Large Carriers Medium Carriers     Small Carriers
                                      Carriers     (more than 50   (16-50 aircraft)     (15 or fewer
                                 Participating           aircraft)                          aircraft)
Aviation Safety Action                 60 of 88           24 of 24         19 of 23          17 of 41
Program                                  (68%)             (100%)            (83%)             (41%)
Flight Operational                     38 of 88           22 of 24         11 of 23           5 of 41
Quality Assurance                        (43%)              (92%)            (48%)             (12%)
Advanced Qualification                 19 of 88           13 of 24          3 of 23           3 of 41
Program                                  (22%)              (54%)            (13%)              (7%)
Source: OIG analysis of FAA-reported data as of January 2012

Despite the disparities between the large and small air carriers, FAA has not fully
implemented its plan to assist smaller air carriers with the resources needed—such as
best practices and guidance—to establish new safety programs. Smaller air carriers
have fewer resources than their mainline counterparts to handle the operation and
management of new safety programs. As a result, they will have to prioritize
development of these programs based on feasibility and importance and will face
difficulties in implementing new programs simultaneously—especially without
guidance or program assistance from FAA.

                                                                                                  10
FAA’s Fatigue Rule Does Not Address Pilot Commuting
FAA’s changes to the flight and duty time regulations represented a significant safety
achievement; however, the regulations do not require air carriers to identify pilots
who commute. These are significant factors that may contribute to fatigue given that
many pilots in the industry reside hundreds or even thousands of miles from their duty
locations. While FAA considered mandating that pilots arrive in time to receive a pre-
flight rest period in the proposed rule, it stated that the requirement would be difficult
to enforce and would not guarantee responsible commuting.

Pilot commuting and related issues were concerns that came to light after the Colgan
accident. The NTSB investigation into the crash revealed that both pilots had
commuted hundreds of miles before the flight. NTSB also found that Colgan did not
proactively address the pilot fatigue hazards associated with basing its operations at
an airport where pilots typically have to commute long distances in order to begin
their work shifts. In its investigative report, the NTSB stated that “operators have a
responsibility to identify risks associated with commuting, implementing strategies to
mitigate these risks, and ensure that their commuting pilots are fit for duty.”

NTSB issued a recommendation to FAA to address fatigue risks associated with
commuting, including identifying pilots who commute. The National Academy of
Sciences similarly noted in a July 2011 report that there are not enough data to
determine the role commuting plays in contributing to fatigue or whether it should be
regulated. 13 This underscores how collecting and analyzing these data could help
FAA make well-informed decisions on commuting. In our September 2011 report on
pilot fatigue, we recommended that FAA collect and analyze data regarding pilot
commuting for all Part 121 flight crews and determine if additional changes are
needed or if airlines need to take further mitigating actions in their fatigue
management systems. In its response, FAA stated that it will review available data on
pilot commuting and determine if additional data could offer added safety benefits.
FAA committed to completing these actions by October 1, 2012.

CONCLUSION
FAA plays an integral role in maintaining the excellent safety record of the U.S.
National Airspace System. FAA acted swiftly to address safety concerns highlighted
by the Colgan crash and has since made commendable progress in meeting new Act
requirements. FAA still faces several challenges, however, in updating pilot training
and leadership programs, developing screening and qualifications standards, and
ensuring carriers have the data they need to make sound hiring decisions. To
effectively implement these initiatives in a timely manner, FAA must balance industry
concerns with a sustained commitment to oversight. We are encouraged by FAA’s

13
     The National Academy of Sciences, The Effects of Commuting on Pilot Fatigue, ISBN 978-0-309-21696-8, July 6, 2011
     (Response to P.L. 111-216, Sec. 212).

                                                                                                                   11
progress to date and will continue to monitor its efforts to meet remaining Act
requirements.

This concludes my statement. I would be happy to address any questions from the
Chairman or Members of the Subcommittee at this time.




                                                                             12
 EXHIBIT. STATUS OF KEY AIRLINE SAFETY ACT REQUIREMENTS

Section   Initiative                     Milestone              Deadline         Milestone Status
  202     NTSB Recommendations           Report                  Annual          Met, On-Target
          Report
 203      FAA Pilot Records Database     Database Development   10/30/2010             Met
                                         Report                   2/1/2012     Missed & Overdue
 204      Air Carrier Safety & Pilot     ARC Report              7/31/2011             Met
          Training ARC                   ARC Report              7/31/2012         On-Target
 205      FAA Inspector Staffing         Start OIG Review         5/1/2011             Met
 206      Mentoring, Development,        NPRM                     8/1/2011     Missed & Overdue
          and Leadership                 Final Rule               8/1/2013      To Be Determined
 207      Crew Pairing and CRM           Study                    8/1/2011      Completed Late –
                                                                                    8/26/2011
 208      NTSB Training                  ARC Formation          11/29/2010             Met
          Recommendations                NPRM                     8/1/2011             Met
                                         ARC report             11/30/2011   Completed Late –3/7/2012
                                         Final Rule               8/1/2013      To Be Determined
 209      FAA Rulemaking on              ARC Formation           9/30/2010      Completed Late –
          Training                                                                 11/16/2010
                                         ARC Report              8/1/2011       Completed Late –
                                                                                    9/23/2011
                                         Final Rule             10/1/2011      Missed & Overdue
 210      Code Share Ticket Disclosure   Amend 49 U.S.C. §         N/A                 Met
                                         41712
 211      FAA Safety Inspections         Perform one per year     Annual               Met
 212      Fatigue & Commuting            NPRM                    2/1/2011              Met
                                         Final Rule              8/1/2011    Completed Late – 1/4/2012
                                         Risk Management        11/1/2010              Met
                                         Plans
                                         Start Study            9/30/2010             Met
                                         Preliminary Findings   1/30/2011             Met
                                         Report                 6/30/2011             Met
 213      Voluntary Safety Programs      Report                 1/28/2011       Completed Late –
                                                                                   3/16/2011
 214      ASAP & FOQA                    Plans Issued           1/28/2011       Completed Late –
          Implementation                                                           4/14/2011
                                         Plans Implemented       8/1/2011     FOQA Portion Overdue
 215      Safety Management Systems      NPRM                   11/1/2010             Met
                                         Final Rule              8/1/2012          On-Target
 216      Screening & Qualifications     NPRM                   1/28/2011       Completed Late -
                                                                                   2/29/2012
                                        Final Rule               8/1/2012       To Be Determined
                                        ATP                      8/1/2013       To Be Determined
  217     ATP Certification             Final Rule               8/1/2013          On-Target
 Source: OIG analysis of FAA-reported data.

                                                                                                    13
